HHS/OIG-Audit--"Review of Medicare Contractor's Pension Segmentation, Empire Blue Cross Blue Shield, (A-07-98-02534)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Medicare Contractor's Pension Segmentation, Empire Blue Cross
Blue Shield," (A-07-98-02534)
March 24, 2000
Complete Text of Report is available in PDF format
(567 KB). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this review was to determine Empire Blue Cross Blue Shield's
(Empire) compliance with pension segmentation requirements of its Medicare contract.
The review addressed the initial determination of pension assets for Empire's
Medicare segment as of January 1, 1999, the date that such requirements were
applicable to Empire. We determined the Medicare segment pension assets to be
$38,626,351 as of January 1, 1999. We recommended that Empire record Medicare
segment pension assets of $38,626,351 and periodically update the Medicare segment
pension assets for contributions, income, benefit payments, and expenses. Empire
agreed with our recommendations.